Report No. D-2010-062                 May 24, 2010




      Controls Over Funds Appropriated for Assistance
        to Afghanistan and Iraq Processed Through
             the Foreign Military Sales Network
Additional Information
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CSTC-A                        Combined Security Transition Command-Afghanistan
DFAS                          Defense Finance and Accounting Services
DIFS                          Defense Integrated Financial System
DSCA                          Defense Security Cooperation Agency
FMR                           Financial Management Regulation
FMS                           Foreign Military Sales
GAO                           Government Accountability Office
IG                            Inspector General
MIPR                          Military Interdepartmental Purchase Requests
MNSTC-I                       Multi-National Security Transition Command-Iraq
SAMM                          Security Assistance Management Manual
                                     INSPECTOR GENERA L
                                   DEPARTME NT OF DEt'ENSE 

                                       400 ARMY NAVY DRIVE 

                                 ARLI NGTON, VIRGINIA 22202-4704 




                                                                                     May 24, 2010


MEMORANDUM FOR DIRECTOR, DEFENSE SECURlTY COOPERATrON
                 AGENCY


SU BJECT: 	 Controls Over Funds Appropriated for Assistance to Afghani stan and Iraq Processed
            Through the Foreign Mi litary Sales Network
            (Report No. 	D-20 I 0-062)

We are prov iding this report for your information and li se. We considered management co mments
on a draft of Ihis report when prepa rin g the final report.

The comments of the Acti ng Deputy Di rector for Defense Securi ty Cooperation Agency
co nformed to the requirements of DOD Directive 765 0.3 . Therefore, additio nal comments are not
requit'ed.

We appreciate the courtesies ex tended to the staff. Please direct qu estions to me at
(703) 60 1-5868 (DSN 329-5868) .




                                              Patricia A. Marsh, CPA
                                              Assistant Inspector Ge neral
                                              Defense Bllsiness Operations
Report No. D-2010-062 (Project No. D2007-D000FD-0198.001)                     May 24, 2010

                Controls Over Funds Appropriated for
                Assistance to Afghanistan and Iraq
                Processed Through the Foreign Military
                Sales Network
What We Did                                             notifying funds holders of excess amounts on a
                                                        timely basis. As a result, some appropriated funds
We determined whether the Defense Security              were not available for other use. See the finding
Cooperation Agency (DSCA) properly managed              for further details on these internal control
funds appropriated for assistance to Afghanistan        weaknesses.
and Iraq that it processed through the Foreign
Military Sales (FMS) network. Specifically, we          What We Recommend
reviewed whether DSCA properly accounted for            DSCA needs to improve procedures and controls
these funds, used the funds for their intended          to ensure that it properly accounts for and reports
purpose, and properly reported the funds in DOD         appropriated funds under its oversight processed
financial reports. This report is the second in a       through the FMS network and expiring in various
series that addresses management of funds               fiscal years. Specifically DSCA should:
appropriated for Afghanistan and Iraq processed         •		 establish procedures to timely return advances
through the FMS network.                                    of appropriated funds before cancelation,
What We Found                                           •		 comply with its existing standard
                                                            procedures for financial reviews to identify
DSCA ensured that funds appropriated for
                                                            over-collected appropriated funds and return
assistance to Afghanistan and Iraq placed under
                                                            such balances to the funds holder, and
its oversight were used for their intended purpose
                                                        •		 perform a review of appropriated funds that
and were properly reported in the DOD Cost of
                                                            have expired that are in excess of future
War Report. However, our testing identified
                                                            required expenditures and properly return
accounting issues that indicate improvements are
                                                            such funds to the funds holder.
necessary to ensure effective management of
these appropriated funds. Specifically,                 Management Comments and
•		 $6 million were not returned to DOD or the
     Military Departments before the funds’
                                                        Our Response
     cancellation date and were not properly            The DSCA Acting Deputy Director’s comments
     accounted for.                                     were responsive and meet the intent of our
•		 Funds totaling $31.6 million could have been        recommendations. No further comments are
     better managed because funds identified as         required.
     not needed were not returned to Multi-
     National Security Transition Command-Iraq
     (MNSTC-I) before the funds expired.
•		 DSCA needs to fully review and determine
     the proper disposition of at least an additional
     $25.7 million of expired unobligated funds
     held in the FMS Trust Fund.
These management exceptions occurred because
DSCA did not have existing procedures on                       Afghan Police Graduation Ceremony
                                                               Source: www.defenseimages.mil
managing canceled funds and did not comply
with existing procedures on monitoring and

                                                   i
Report No. D-2010-062 (Project No. D2007-D000FD-0198.001)           May 24, 2010

Recommendations Table
Management                      Recommendations             No additional Comments
                                Requiring Comment           Required
Director, Defense Security                                  1, 2, 3
Cooperation Agency




                                       ii
Table of Contents

Introduction

      Objectives                                                      1

      Background                                                      1

      Review of Internal Controls                                     3


Finding. Defense Security Cooperation Agency Controls Over Funds


Appropriated for Assistance to Afghanistan and Iraq                   4


      Management Comments on the Finding and Our Response             9

      Recommendations, Management Comments and Our Response          10 


Appendix

      Scope and Methodology                                          11 

        Prior Coverage                                               12 


Management Comments                                                  14 

Introduction
Objectives
Our objective was to determine whether the funds appropriated for the security,
reconstruction, and military assistance to Afghanistan and Iraq processed through the
Foreign Military Sales (FMS) network were properly managed. Specifically, we
determined whether the funds were
    • properly accounted for,
    • used for their intended purpose, and
    • properly reported in DOD financial reports.

See the Appendix for a discussion of our scope and methodology and for prior audit
coverage.

Background
This report provides our results on the second phase of a two-phase audit of certain funds
appropriated for the security, reconstruction, and military assistance to Afghanistan and
Iraq processed through the FMS Trust Fund. We issued Report D-2009-063, “Funds
Appropriated for Afghanistan and Iraq Processed Through the Foreign Military Sales
Trust Fund,” (March 24, 2009) for the first phase of our audit. We reported that
executing these appropriated funds using the FMS Trust Fund was not (1) in the best
interest of the Government, (2) the most economical use of the funds, and (3) managed in
accordance with the requirements in the DOD Financial Management Regulation.

DSCA Management Activities
DSCA directs, administers, and supervises the execution of Security Assistance programs
to foreign governments. DSCA is the focal point for government-to-government arms
transfers, budgeting, legislation, projections, and forecasting. DSCA conducts
international logistics and sales negotiations with foreign countries, provides financial
management, develops and implements Security Assistance policies, and assists
U.S. industry in exporting military articles and providing services. As part of its
responsibilities, DSCA manages the FMS Trust Fund. This fund originated to receive
payment advances from foreign countries purchasing defense articles and services from
the U.S. Government. DSCA receives such advances based on payment schedules
included in the mutually executed Letters of Offer and Acceptance with the foreign
government. DSCA’s process includes establishing a case for the Letters of Offer and
Acceptance with one or more order lines to control the acquisition of requested defense
articles and services. DSCA performs its management functions through its country
directors who coordinate with implementing military agencies that accomplish issuances
from stock or contract purchases with Government suppliers. The implementing agencies
provide information about case execution including the status of the individual cases to
DSCA. This information includes both the value and type of defense articles and
services purchased by the foreign country.



                                            1

DSCA Accounting Activities
DSCA establishes initial accounting control for monies deposited to the FMS Trust Fund
for a case by creating a financial record for the case with a number of data elements,
including the appropriate foreign country code designator, case designator, and funds
allocated to the case. All purchasing activity must include the country code and case
designator to properly record transactions for accounting purposes.

Multiple DOD organizations are involved in creating and recording the accounting
transactions related to FMS Trust Fund purchasing activity. DSCA is responsible for
working with the Defense Finance and Accounting Services (DFAS) and implementing
agencies for execution and accounting of the cases. DFAS personnel use the Defense
Integrated Financial System (DIFS) to perform the departmental accounting related to the
billing, disbursing, and collecting functions for some security assistance programs.
Implementing agencies perform the ordering, contracting, and delivery/receiving
functions related to the foreign country purchases. The implementing agencies’
accounting and logistics systems either directly interface with or provide financial data
for input to DIFS, which compiles the information into reports for use by DSCA
personnel and others.

Historically, DSCA has used the DIFS accounting system in managing and reporting
monies from foreign countries deposited in the FMS Trust Fund for the Foreign Military
Sales program. Those funds do not have expiration dates for their use, meaning that the
funds are available until expended. Accordingly, the budgetary account structure of
DIFS does not use or report specific expiration years usually associated with executing
appropriated funds. DIFS uses only the FMS Trust Fund account number. As a result,
implementing agencies executing such cases can only cite that single account number to
obligate and disburse funds in the FMS Trust Fund and interface with the DIFS
accounting system.

Appropriated Funds for Assistance to Afghanistan and Iraq
In FY 2003, DSCA began managing certain purchasing activity related to specific funds
congressionally mandated for assistance to the Afghanistan and Iraq security forces. ∗
The purchasing activity it manages originates from two commands: the Combined
Security Transition Command – Afghanistan (CSTC-A) and the Multi- National Security
Transition Command – Iraq (MNSTC-I). According to DSCA, the most effective process
for executing the requests for purchases of defense articles and services with the
appropriated funds it manages is to use its existing country and case management
process. DSCA decided to use DIFS and the FMS Trust Fund to manage and account for
appropriated funds for Afghanistan and Iraq.




∗
  For a complete accounting description of the appropriated funds and their transfer into the FMS Trust
Fund, see DOD IG Report D-2009-063, “Funds Appropriated for Afghanistan and Iraq Processed Through
the Foreign Military Sales Trust Fund.”



                                                   2

Accordingly:
   •	 DSCA requires the appropriated funds for each case to be transferred in advance.
      It collects the funds into the FMS Trust Fund.

   •	 DSCA assigns a two-digit country code to appropriated funds, based on the fiscal
      year the funds expire, to track those funds in the FMS Trust Fund by their
      expiration date.

   •	 DSCA uses its case management process to execute each case from CSTC-A and
      MSNTC-I through implementing agencies. DSCA uses DIFS to monitor and
      manage the balances in each country code and case number including case value,
      funds collected, obligation authority, deliveries, and funds disbursed.

As more fully discussed in the Appendix, we identified certain appropriations for
reconstruction and military and security assistance to Afghanistan and Iraq from fiscal
years 2003 through 2007 executed through the FMS network. We selected line items
from applicable Letters of Offer and Acceptance totaling $790.5 million, ordering various
defense articles and services, such as the design and construction of a bridge, the design
and construction of buildings; the purchase of weapons, ammunition, tactical and combat
vehicles, spare parts, airplanes, helicopter parts, flight simulators, and flight trainers.
Table 1 shows by country the order amounts reviewed.

             Table 1. Order Amounts Reviewed for Appropriated Funds


          for Assistance to Afghanistan and Iraq FY 2003 through FY 2007



                             Number Defense Articles and Services
                  Country
                             of Lines Order Amount
                 Afghanistan    31           $585.8 million
                 Iraq           34           $204.7 million
                  Total         65           $790.5 million


Review of Internal Controls
We identified internal control weaknesses as defined by DOD Instruction 5010.40,
“Managers’ Internal Control (MIC) Program Procedures,” January 4, 2006. DSCA
did not have adequate controls over the appropriated funds managed in the FMS Trust
Fund. DSCA did not develop and implement procedures to identify and return
canceling appropriated funds in accordance with United States Code and the DOD
Regulation 7000.14-R, “Financial Management Regulation.” In addition, DSCA did not
perform adequate procedures to identify cases where the cash amount collected from the
funds holders exceeded the case value. Implementing recommendations 1, 2, and 3 will
establish procedures to address the weaknesses. We will provide a copy of the report to
the senior DSCA official responsible for internal controls.




                                            3

Finding. Defense Security Cooperation
Agency Controls Over Funds Appropriated
for Assistance to Afghanistan and Iraq
Defense Security Cooperation Agency personnel did not always properly manage
canceled, over-collected, and unobligated appropriated funds transferred into the Foreign
Military Sales (FMS) Trust Fund. Specifically, we identified,
               •	 $6 million of canceled funds that were not properly accounted for and
                   transferred back to the funds holders:
                       o		 $3.6 million of funds that were canceled September 30, 2008,
                           and
                       o	 $2.4 million of funds that were canceled September 30, 2009;
               • $31.6 million of funds that could have been better managed:
                       o	 $17.5 million of over-collected appropriated funds for three
                           sample items were not returned to MNSTC-I, and
                       o	 $14.1 million over-collected appropriated funds on one country
                           code for MNSTC-I;
               •		 $25.7 million of expired unobligated funds held in the FMS Trust
                   Fund for CSTC-A and MNSTC-I that DSCA needs to fully review to
                   determine proper disposition.

These management exceptions occurred because DSCA personnel did not have adequate
controls to handle canceling appropriated funds. Additionally, they did not follow
established procedures to ensure that they always identified over-collected funds. They
also did not consistently perform financial reviews of the cases to determine unneeded
unobligated amounts. As a result, DSCA holds canceled funds in the FMS Trust Fund in
noncompliance with applicable laws and regulations and DSCA personnel did not
authorize the return of funds it identified as unneeded to the funds holders.

Managing Canceled Funds in the FMS Trust Fund
As shown in Table 2, we identified $6 million in canceled funds that DSCA management
did not properly account for and return to the original funds holders. The funds that we
identified were canceled September 30, 2008, and September 30, 2009.




                                            4

                Table 2. Canceled Funds for Assistance to Afghanistan


                            Held in the FMS Trust Fund


                                     (in millions)

  Appropriation            Cancelation            Advances to FMS          Canceled
     Year                     Year                  Trust Fund             Amount

      FY 2003                FY2008                   $150.4                  $3.6

      FY 2004                FY2009                    292.5                   2.4

       Totals                                         $442.9                  $6.0

Appropriated funds cancel 5 years after their expiration date. Section 1552(a), title 31,
United States Code, and DOD Regulation 7000.14-R, “DOD Financial Management
Regulation” (DOD FMR), volume 3, chapter 15, paragraph 150306, state that when
balances are canceled, the amounts are not available for obligation or expenditure for any
purpose. In addition, the DoD FMR, volume 3, chapter 15, paragraph 150308, states that
upon cancelling an appropriation, the balance must be reclassified as canceled authority.
The Treasury Financial Manual, volume 1, part 2, chapter 4200, section 4225.15b,
requires agencies to report canceled funds on their “Year-End Closing Statement,” FMS
Report 2108. The Treasury Financial Manual, Bulletin Nos. 2008-06 and 2009-04
provide further guidance for appropriation accounts that cancel in FY 2008 and FY 2009.
The bulletins state that before agencies close an account, their fourth-quarter FACTS II
submission must include the unobligated and obligated balances as canceled. In addition,
section 1554(b)(1), title 31, United States Code states that after the close of each fiscal
year, the head of each agency must submit to the President and the Secretary of the
Treasury a report concerning canceled balances.

The DOD and Military Departments were the original funds holders for the FY 2003 and
FY 2004 appropriations transferred to the FMS Trust Fund that canceled September 30,
2008, and September 30, 2009, respectively. Because DSCA did not notify them or
transfer the funds back to them, the Military Departments did not have the opportunity to
comply with the United States Code, DOD FMR volume 3, and Treasury Manual
requirements to perform the required reporting. DSCA does not have direct guidance
related to canceled funds because the DOD FMR, volume 15, “Security Assistance Policy
and Procedures,” and DSCA’s Security Assistance Management Manual (SAMM),
DOD 5105.38-M, do not address procedures to record expired or canceled funds in the
FMS Trust Fund. However, DSCA personnel should have recognized the need to take
appropriate action regarding canceled funds and should have consulted appropriate
references including the United States Code, DOD FMR volume 3, and Treasury
Financial Manual cited in this report.




                                             5

During the audit, DSCA management acknowledged that canceled funds were in the
FMS Trust Fund. Management agreed in principle to return the funds as soon as they
received definitive guidance requested from the funds holders. DSCA stated that any
appropriations balances canceling in the future would be returned to the fund holders
before the funds actually canceled.

Managing Over-collected Funds in the FMS Trust Fund

Of the sample items tested, we found three where DSCA personnel identified unobligated
funds, totaling $17.5 million, as unneeded for executing the cases. DSCA personnel
authorized a decrease to each case value. The amount of appropriated funds originally
collected for each case that exceeded the decreased case value were over-collected funds
in the FMS Trust Fund. However, DSCA did not promptly return the cash funds to
MNSTC-I. After notification from the DOD Office of Inspector General, DSCA
personnel did authorize the return of the funds. The Economy Act, section 1535(d),
title 31, United States Code, states that the amount obligated is deobligated, to the extent
that the agency or unit filling the order has not incurred obligation, before the end of the
period of availability. Further, Government Accountability Office (GAO) guidance on
Economy Act orders requires the performing activity to recover only actual costs and
promptly refund the excess amounts in accordance with the following two passages:

The Principles of Federal Appropriation Law, third edition, volume III, chapter 12,
September 2008, states:

               If the excess is determined while the appropriation charged with the
               advance is still available for obligation, the performing agency should
               pay special attention to returning the funds in time for the ordering
               agency to be able to use them.

GAO’s Policy and Procedures Manual for Guidance of Federal Agencies, Title 7—Fiscal
Guidance, Transmittal Sheet No. 7-43, states:

               When the law requires that the performing agency recover actual costs
               for the items or services provided and advances by the requesting
               agency exceed the actual costs of performance, the excess should be
               refunded promptly upon completion of performance or termination of
               the order by the requesting agency. (For example, the prompt return of
               excess funds may be critical to the requesting agency so that funds can
               be used before they expire.)

In addition, the SAMM, chapter 9, paragraph 14, DOD 5105.38-M, October 3, 2003,
provides guidance regarding the financial review of cases by DSCA including a table to
be used in the financial review. Line 6 of that table is for calculating collections that are
in excess of case value. The purpose of this line is to identify FMS cases where the
amount collected exceeds the case value.

DSCA did not fully implement the Economy Act and associated GAO guidance. For the
three samples, DSCA personnel were aware that the funds were not required for case


                                                 6

execution as they authorized amending the case documents to a lower dollar value and
amending the case values in DIFS. However, DSCA personnel did not authorize the
transfer of these funds from the FMS Trust Fund back to MNSTC-I. As a result,
MNSTC-I did not have the opportunity to use the funds before they expired. If DSCA
personnel had fully implemented the guidance, they would have become aware that they
had not transferred $17.5 million of appropriated funds from the FMS Trust Fund to the
original funds holders. The following describe the three sample items we tested.

               •	 Case B3-B-AAB. The original Letter of Offer and Acceptance was
                  amended 79 days before the funds expired on September 30, 2007,
                  decreasing the total amount of the case by $16.5 million. DFAS
                  personnel, at the request of DSCA personnel, decreased the case value
                  in DIFS. At the same time, for accounting purposes, DFAS personnel
                  transferred the $16.5 million to a country code holding account.
                  DSCA personnel notified DFAS that they would provide more
                  instructions for disposition of the excess funds but DSCA did not
                  provide those additional instructions.

               •	 Case Y7-D-AAA. DSCA personnel accepted separate decreases of
                  $5.5 million and $0.7 million to the military interdepartmental
                  purchase request (MIPR) funding the case. They properly amended
                  the Letter of Offer and Acceptance before funds expired on
                  September 30, 2006, decreasing the case by $6.2 million. DSCA
                  personnel authorized DFAS to return $5.5 million of the $6.2 million
                  to MNSTC-I. However, DSCA personnel did not provide instruction
                  to DFAS regarding the return of the remaining $0.7 million.

               •		 Case B3-B-AAC. The original Letter of Offer and Acceptance was
                   modified 58 days before the funds expired on September 30, 2007,
                   decreasing the total amount of the case by $0.3 million. DSCA
                   personnel did not obtain an amended MIPR to reduce the original
                   budgetary authority and did not authorize the removal of the funds
                   from the case and the return of the funds to MNSTC-I.

For these three cases, DSCA personnel and the funds holders acknowledged the funds
were excess because they had authorized the decrease to the case values. DSCA
personnel, however, did not transfer funds from the FMS Trust Fund back to MNSTC-I
because DSCA did not properly implement its financial review guidance. We notified
DSCA personnel regarding this condition. DSCA personnel agreed with the condition
and authorized the return of funds. We confirmed that DFAS completed the return of the
funds to MNSTC-I on August 7, 2009.

We performed additional reviews of DIFS reports for the cases and line items not tested
in our sampling to identify additional over-collected balances. As of September 30,
2009, we identified 15 cases with over-collected balances totaling $14.1 million in




                                           7

country code B7 for MNSTC-I. DSCA should correct these instances of over-collected
funds through its required financial reviews in accordance with the SAMM and return
over-collected funds to MSNTC-I.

Managing Unobligated Funds in the FMS Trust Fund
DSCA did not always effectively monitor and identify excess unobligated funds before
they expired. As a result, they were not available for other use. As we have noted, the
GAO guidance on Economy Act orders requires the performing activity to recover only
actual costs and promptly refund the excess amounts before the funds expire. We
reviewed a DIFS report showing the status of funds as of September 30, 2009. The report
showed that $25.7 million in expired unobligated funds consisting of open cases for both
CSTC-A and MNSTC-I, as well as holding account balances, remain in the FMS Trust
Fund. DSCA personnel need to determine their proper disposition.

DSCA has taken steps to improve its management of expiring appropriated funds
processed through the FMS network. In April 2009, the Assistant Secretary of Defense
for Global Security Affairs issued standard operating procedures titled “Financial
Management of FY 2009 Afghanistan Security Forces Fund, Iraq Security Forces Fund
and 1206 Train and Equip Program.” DSCA developed the standard operating
procedures to provide guidelines to encourage implementing agencies to identify the
excess funds on cases early. The significant guidance included:

       •	 detailed time requirements for processing each step in the case management
           process by type of appropriated funding;
       •	 priorities for various options to execute purchases for cases and to reprogram
           excess funds on cases;
       •	 deadlines for establishing new cases near funds expiration dates allowing
           adequate processing time for implementation of the intended purchase activity
           through stock issuances or contracting actions;
       •	 deadlines for reviewing case execution status and identifying excess funds for
           other execution or return to the funds holders; and,
       •		 detail procedures for emergency case implementation ensuring full use of
           available funding before expiration.

DSCA and implementing agency use of the new procedures should reduce the amount of
unneeded unobligated current funds. However, the procedures do not directly address
funds that have previously expired and DSCA management should extend these
procedures to include reviewing appropriated funds that have expired. DSCA should
identify these instances of unneeded unobligated funds and return excess funds to the
funds holder.




                                           8

Managing Funds for Their Intended Purpose
We tested $790.5 million of line items selected from applicable Letters of Offer and
Acceptance to determine whether DSCA ensured that funds appropriated for assistance to
Afghanistan and Iraq and placed under its oversight were used for the purposes defined in
the relevant appropriation acts. The various items tested included: ordering various
defense articles and services, such as the design and construction of a bridge and of
buildings and the purchase of weapons, ammunition, tactical and combat vehicles, spare
parts, airplanes, helicopter parts, flight simulators, and flight trainers. Our review of
these samples showed that the appropriated funds were used for their intended purpose.

Conclusion
Based on the exceptions we found in testing sample items, we have determined that
DSCA can improve its management of appropriated funds processed through the FMS
Trust Fund. As an executing agency, an important element of managing appropriated
funds is adequate monitoring of the status of those funds as well as adequate
communication of that status to the original funds holder. DSCA could more effectively
manage over-collected funds and funds near expiration or cancellation by following
established procedures and developing additional standard procedures to perform the
specific functions addressed in our recommendations.

Management Comments on the Finding and Our
Response
Management Comments
The Acting Deputy Director, Defense Security Cooperation Agency, provided comments
regarding the finding discussion in our report. Before issuing our draft report, we
provided management a discussion draft of the audit background and intended findings
and recommendations for review. The Acting Deputy Director stated that DSCA detailed
several clarifying comments and factual corrections in its review of that discussion draft
and few of its comments were incorporated in the draft report. DSCA recommended
another review of those comments and reconsideration to incorporate more of the
clarifying comments before publishing our final report.

Our Response
We appreciated management’s comments on the discussion draft of the report, and we
thoroughly considered management’s suggestions. We made changes suggested by
management where appropriate and when sufficient evidence was provided before we
issued the draft report. We reviewed that correspondence before issuing this final report
and found no instances where additional changes were warranted.




                                            9

Recommendations, Management Comments, and Our
Response
We recommended that the Director, Defense Security Cooperation Agency:

       1.		 Establish procedures to properly identify, record, and return
            appropriated funds that are near cancellation on a timely basis.


Management Comments
The Acting Deputy Director, Defense Security Cooperation Agency, agreed and stated
that DSCA initiated a program to identify pseudo-cases funded with appropriations
canceling at fiscal year-end. She stated that DSCA is working with the implementing
agencies to close out the identified cases and contracts to return unneeded funds to the
funds holder before cancelation.

       2.		 Follow its internal financial review guidance, Security Assistance
            Management Manual, chapter 9, paragraph 14, DOD 5105.38-M,
            October 3, 2003, to identify advances of appropriated funds collected that
            are in excess of case values and return such excess funds to the original
            funds holders.


Management Comments
The Acting Deputy Director, Defense Security Cooperation Agency, agreed and stated
that DSCA issues annual standard operating procedures that establish time frames for
maximum use of funds expiring at fiscal year-end. She stated that DSCA also reviews
and addresses unneeded funding to enable reutilization by the funds holder throughout
the execution year.

       3.		 Perform a financial review of all appropriated funds that have expired to
            determine unobligated funds that are in excess of future required
            expenditures and return such funds to the funds holders.


Management Comments
The Acting Deputy Director, Defense Security Cooperation Agency, agreed and stated
that DSCA will review excess funds for appropriations that expired in previous fiscal
years and will return unneeded funds to the original funds holder.


Our Response
The Acting Deputy Director, Defense Security Cooperation Agency, comments are
responsive; and DSCA management actions meet the intent of our recommendations.
Further comments from management are not required.


                                            10 

Appendix. Scope and Methodology
We conducted this performance audit from October 2008 through December 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our objective was to determine whether the funds appropriated by Congress for
assistance to Afghanistan and Iraq processed through the Foreign Military Sales network
were being properly managed. We reviewed whether DSCA oversight over such funds
ensured proper authorization, compliance with intended use, and proper accounting in
DOD financial reports.

DFAS personnel used the DIFS, a computer system that reports case execution and FMS
Trust Fund financial data. They provided us a universe of 351 cases comprised of 1,691
order lines totaling $7.6 billion as of September 30, 2007. Before making a final
selection of sample items for testing, we excluded
         • cases that were reviewed as part of other DOD IG Audits and
         • cases executing Foreign Military Financing funds.

The remaining 69 cases were comprised of 345 order lines totaling $1.2 billion. We then
made a judgmental sample of 74 order lines for testing. From the order lines selected, we
further excluded order lines where all disbursements occurred outside the United States.
Our final sample of 65 order lines totaled $790.5 million.

We verified the authorization for the funding of our sample items, the recording of
transactions showing execution of the funding, and compliance with the intended purpose
of the funds by examining source documents. Documents reviewed included applicable
public laws, forms establishing the case (amount, items for purchase, and funds citation),
MIPRs, vouchers for transferring the appropriated funds into the FMS Trust Fund,
contracts, purchase orders, requisitions, domestic shipping and delivery receipts, and
disbursement vouchers. Additionally, we determined that DFAS reports properly
included obligation information for these appropriated funds for assistance to
Afghanistan and Iraq transferred into the Foreign Military Sales Trust Fund, including the
cost of war report.




                                           11 

The testing phase of our audit required unexpected additional time to complete because
there were delays in obtaining audit documentation. We encountered delays obtaining
documentation related to significant construction projects in Afghanistan. It required
approximately 4 months from our initial data request to obtain complete and sufficient
documentation for the execution of such funds.

Use of Computer-Processed Data
We verified information for the execution of these appropriated funds for our sample
items reported in Army, Air Force, and Navy accounting and logistical systems by
examining source documents. These systems included CEFMS (Corp of Engineers
Financial Management System), PBAS (Program Budget Accounting System), CMCS
(Centrally Managed Case System), CISIL (Centralized Integrated System for
International Logistics), and MISIL (Management Information System for International
Logistics). We used summary information from DIFS, the computer system DSCA uses
for accounting management of these appropriated funds processed through the FMS
network. Specifically, we obtained financial information regarding ordered amounts on
the LOA, collections, disbursements, and current cash balances as well as the dates of
occurrence for various accounting events. Based on the results of verifying execution
data to source documents for our sample items, and verifying the consistency of the
summary data used from DIFS with the execution data we examined, the computer-
processed data used in the preparation of this report was sufficiently reliable.

Use of Technical Assistance
We obtained technical assistance from our Quantitative Methods Directorate in making
our judgmental sample selection. Additionally, personnel from our Office of General
Counsel provided technical assistance regarding various legal matters.


Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the
Department of Defense Inspector General (DOD-IG) have issued nine reports discussing
appropriated funds provided to Afghanistan and Iraq and the FMS Trust Fund.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DOD IG reports can be accessed at http://www.dodig.mil/audit/reports.


GAO

GAO Report No. GAO-09-454, “Foreign Military Sales Program Needs Better Controls
for Exported Items and Information for Oversight,” May 20, 2009




                                           12 

DOD IG

DOD IG Report No. D-2009-063, “Funds Appropriated for Afghanistan and Iraq
Processed Through the Foreign Military Sales Trust Fund,” March 24, 2009

DOD IG Report No. D-2009-050, “Distribution of Funds and the Validity of Obligations
for the Management of the Afghanistan Security Forces Fund – Phase II,” February 5,
2009

DOD IG Report No. D-2008-098, “Internal Controls Over Payments Made in Iraq,
Kuwait, and Egypt,” May 22, 2008

DOD IG Report No. D-2008-026, “Management of the Iraq Security Forces Fund in
Southwest Asia – Phase III,” November 30, 2007

DOD IG Report No. D-2008-012, “Distribution of Funds and the Validity of Obligations
for the Management of the Afghanistan Security Forces Fund – Phase I,” November 5,
2007

DOD IG Report No. D-2007-060, “Management of the Iraq Security Forces Fund in
Southwest Asia – Phase II,” February 12, 2007

DOD IG Report No. D-2007-030, “Management of the Iraq Security Forces Fund in
Southwest Asia – Phase I,” December 8, 2006

DOD IG Report No. D-2006-011, “Report on the Foreign Military Sales Trust Fund Cash
Management,” November 7, 2005




                                         13 

Defense Security Cooperation Agency Comments 





                              DEFENSE SECOlUl'\' (,'(){'),PEMTJON AGENC\'
                                    101 Utn SlltEET SOtrrn, S'fE 103
                                      ARLINGTON. VA      Z21(l2~54()8                       M,AR 05       ,om

      MEMORANDUM FOR DEPUTY ASSlSTANT INSPECTOR GENERAL
                      DEFENSE BUSINESS OPERATIONS

      SUBJECT: Report on Controls Over Funds Appropriacoo for Assislance to Afghanistan
                   and Iraq Process(>.d Through the Foreign Military Sales Network (Project
                   No.D2001·DOOOFD-OI98.001)

      Reference: (a) DoD Office of Inspector General Memorandum, Controls Over Funds
                     Appropriated for Assistancc to Afglumistan and Irtltl Processed
                     Through the Foreign Military Sales Network (l'roject No, D2()()1·
                     DooOFO·0198,001), January 29, 2010
                 (b) Dcfcust Security Cooperation Agency Memorandum) Control Over
                     Funds Af.lIJropnated fur Assislam;e to Afghanistau nnd Iraq Processed
                     l'hrough Ihe Foreign Military Solos Network (proj"c' No, D2007·
                     DOooFD·O 19B,00 IJ··"Discussion Draft, December 7, 2009

             Reference (a) requested Ule Director, Defense Security Cooperation Ageucy
      (DSCA) }.lI'ovidc. COfll!11cmts l\) UlC dl'aft report, 5ulJjccl as above, ilnd slaLe agreement or
      disagreement wilh the l1ndings Gnd rccomlncn<luliot1s. This rnemorufJ(.Ium is tho second
      response to the report, ltlt'cfcrelicc (b), DSCA dctruJed severnl clarifying comments and
      factual corrections. After reviewing this second draft report. few of our comments were
      incorpomted inio the draft report. DSCA recommends another review of the comments
      already provided nnd re~eonsideration to incorporate more of the clarifying comments
      prior to publication.

             The draft report outlined three recommendations, Please reference those
      recommendations IInd our response helow,

              DSCA response to Rcc{I[I.JIDendation One: nSCA initiuted a program to identify
      ~eUdQ-ciWeS    funded with appropriutions cancelling !It the end of the current fisc{ll year.
      DSCA I:'i nOw actively working with Ole lmplementing Agencies to close alit the
      identified cases amI associated contracts so all uuneeded Illnd:; can be returned to the
      original funds holder prior to canccllalion,




                                                                    14 

        nSCA respouse to Recommendation Two; DSCA now Issues.(1 yeRriy
memofil11dum which includes a Standard Opemting Procedures (SOP) direcling
tim[';frM1M for various actions to enable maximum utilization of fimds expiring in the
current fiscal year. In conjunction with this memorandum, DSCA flggresHively reviews
and addresses u1111udcd funding (0 enable re~uti1ization by the funds holder throughout
the execution year.

       DSCA r"spo",e to Recommend.tion Three, As .11 ongoing proc•••, DSCA will
review ext".ess funds for nppropriati(lns that expired in a previons fiscal year. As part of
this review) DSCA will detcnnine amounls to be retained that may be needed for
unanticipated within lI'COpc price adjustments. Ally unneeded funds wilt be returned to the
original funds holder.

      We request you review our comments in this respouse, in our prior response and
incorporate into the final version ofYQur rcport. [f you prcfc~
                           I            my audit focal p o j n t _




                                                           "...... LFlrm.r
                                                         AoIIJIO DIIPIIIY DI",oIo,




                                                         15 

